National Credit Union Administration
System Review Report




                            May 7, 2010
                            Report No. 478




  10
                                           UNITED STATES
                          SECURITIES AND EXCHANGE COMMISSION
                                      WASHINGTON, D.C.   20549

     OFFICE OF
INSPECTOR GENERAL                                                              May 7,2010



           William DeSamo
           Inspector General
           National Credit Union Administration
           1775 Duke Street
           Alexandria, VA 22314-3428

           Subject: System Review Report on the National Credit Union Administration's
           Office of Inspector General Audit Organization

           Dear Mr. DeSarno,

          Attached is the final System Review Report on the National Credit Union
          Administration's Office of Inspector General's audit organization conducted in
          accordance with Government Auditing Standards and the Council of the
          Inspectors General on Integrity and Efficiency guidelines. Your response to the
          draft report is included as Enclosure 2.

          We are pleased that you agreed with all of our recommendations and we agree
          with your proposed corrective actions. Thank you and your staff for the courtesy
          and cooperation extended to our staff during the review.




                                                              7?c~'
                                                                 H.~
                                                                 Inspector General


          Attachment
System Review Report

May 7, 2010

William DeSarno
Inspector General
National Credit Union Administration
1775 Duke Street
Alexandria, VA 22314-3428

Dear Mr. DeSarno,

We have reviewed the system of quality control for the audit organization of the
National Credit Union Administration (NCUA), Office of Inspector General (OIG)
in effect for the period ended October 30, 2009. A system of quality control
encompasses NCUA OIG’s organizational structure and the policies adopted and
procedures established to provide it with reasonable assurance of conforming
with Government Auditing Standards. The elements of quality control are
described in the Government Auditing Standards. NCUA OIG is responsible for
designing a system of quality control and complying with it to provide NCUA OIG
with reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. Our responsibility is to
express an opinion on the design of the system of quality control and NCUA
OIG’s compliance therewith based on our review.

Our review was conducted in accordance with Government Auditing Standards
and guidelines established by the Council of the Inspectors General on Integrity
and Efficiency (CIGIE). During our review, we interviewed NCUA OIG personnel
and obtained an understanding of the nature of the NCUA OIG audit
organization, and the design of the NCUA OIG’s system of quality control
sufficient to assess the risks implicit in its audit function. Based on our
assessments, we selected engagements and administrative files to test for
conformity with professional standards and compliance with NCUA OIG’s system
of quality control. The engagements selected represented a reasonable cross-
section of the NCUA OIG’s audit organization, with emphasis on higher-risk
engagements. Prior to concluding the review, we reassessed the adequacy of
the scope of the peer review procedures and met with NCUA OIG’s management
to discuss the results of our review. We believe that the procedures we
performed provide a reasonable basis for our opinion.

In performing our review, we obtained an understanding of the system of quality
control for NCUA OIG’s audit organization. In addition, we tested compliance with
NCUA OIG’s quality control policies and procedures to the extent we considered
appropriate. These tests covered the application of NCUA OIG’s policies and
procedures on selected engagements. Our review was based on selected tests;


NCUA System Review Report                                                 May 7, 2010
Report No. 478
                                         1
 therefore, it would not necessarily detect all weaknesses in the system of quality
 control or all instances of noncompliance with it.

 There are inherent limitations in the effectiveness of any system of quality
 control, and therefore noncompliance with the system of quality control may
 occur and not be detected. Projection of any evaluation of a system of quality
 control to future periods is subject to the risk that the system of quality control
 may become inadequate because of changes in conditions, or because the
 degree of compliance with the policies or procedures may deteriorate.

 Enclosure 1 to this report identifies the audit engagements that we reviewed.

In our opinion, the system of quality control for the audit organization of NCUA
OIG in effect for the period ended October 30, 2009 has been suitably designed
and complied with to provide NCUA OIG with reasonable assurance of
performing and reporting in conformity with applicable professional standards in
all material respects.. Federal audit organizations can receive a rating of pass;
pass with deficiencies, or fail. The NCUA OIG has received a peer review rating
of pass. As is customary, we issued a letter dated May?, 2010,that sets forth
findings that were not considered to be of sufficient significance to affect our
opinion expressed in this report.

In addition to reviewing its system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures in
accordance with guidance established by the CIGIE related to NCUA OIG's
monitoring of engagements performed by Independent Public Accountants (IPA)
under contract where the IPA served as the principal auditor. It should be noted
that monitoring of engagements performed by IPAs is not an audit and therefore
is not subject to the requirements of Government Auditing Standards. The
purpose of our limited procedures was to determine whether NCUA OIG had
controls to ensure IPAs performed contracted work in accordance with
professional standards. However, our objective was not to express an opinion
and accordingly, we do not express an opinion, on NCUA OIG's monitoring of
work performed by IPAs.




                                                       $~ H. David Kotz
                                                          Inspector General


Enclosures (2)


NCUA System Review Report                                                    May 7, 2010
Report No. 478
                                          2
                                                                    Enclosure 1

SCOPE AND METHODOLOGY

We tested compliance with the NCUA OIG audit organization’s system of quality
control to the extent we considered appropriate. These tests included a review of
1 of 2 audit reports issued during the period April 1, 2008, through October 30,
2009. We also reviewed the internal quality control review performed by NCUA
OIG.

In addition, we reviewed the NCUA OIG’s monitoring of an engagement
performed by an IPA, where the IPA served as the principal auditor. NCUA OIG
contracted for the audit of its agency’s Fiscal Year 2008 Financial Statements.
Due to problems related to a major accounting issue that has not been resolved,
the financial statement audit has not been completed and a final report has not
been issued. We reviewed this audit to determine whether it was adequately
monitored.

Reviewed Engagements Performed by NCUA OIG

Report No.            Report Date       Report Title
OIG-09-03             Oct 23, 2009      Material Loss Review – New London
                                        Security Federal Credit Union

OIG-08-06             June 4, 2008      Review of the Implementation of
                                        Homeland Security Presidential
                                        Directive 12

Reviewed Monitoring Files of NCUA OIG for Contracted Engagements

Report No.            Report Date       Report Title
Pending               Pending           NCUA Financial Statements




NCUA System Review Report                                               May 7, 2010
Report No. 478
                                        3
                                                                                            Enclosure 2




                                     N ationa! Credit Union Administration



       Office of Inspector General



            The Honorable H. David Kotz
            Inspector General
            Office of the Inspector General
            Securities and Exchange Commission
            100 F Street, N.E.
            Washington, D.C. 20549

            Date: April 22, 2010

            SUbject: Report on the External Quality Control Review of the National Credit Union
            Administration Inspector General Audit Organization

            Dear Mr. Kotz

            We appreciate the work conducted by your staff in reviewing the quality control process
            for the audit function at the National Credit Union Administration (NCUA) OIG. We
            agree with your opinion that the system of quality control for the audit function meets the
            requirements established by the Comptroller General of the United States for a General
            Government audit organization. We have no additional comments on the final System
            Review draft report provided. Thank you for the professionalism shown and your efforts
            in completing this review.



                                                              Sincerely,

                                                               rJl-4.~
                                                              William A. DeSarno
                                                              Inspector General




       1775 Duke Slreel _ Alexandria, Virginia 22314_3428 _ 70lJ_518_6350 _ 703_518_6349 FAX _ oigrnail@ncua.gov




NCUA System Review Report                                                                        May 7, 2010
Report No. 478
                                                     4
